<html>
<title> - FEDERAL ELECTION REFORM</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



                        FEDERAL ELECTION REFORM

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN WASHINGTON, DC, MAY 10, 2001

                               __________

      Printed for the use of the Committee on House Administration



83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                           BOB NEY, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland,
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York

                           Professional Staff

                     Paul Vinovich, Staff Director
                  Bill Cable, Minority Staff Director

 
                        FEDERAL ELECTION REFORM

                              ----------                              


                         THURSDAY, MAY 10, 2001

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 4:49 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Mica, Reynolds, Hoyer, and 
Davis.
    Staff present: Roman Buhler, Counsel; Paul Vinovich, 
Counsel; Jeff Janas, Professional Staff; Chet Kalis, 
Professional Staff; Luke Nichter, Staff Assistant; Sara Salupo, 
Staff Assistant; Bob Bean, Minority Staff Director; Keith 
Abouchar, Professional Staff; Matt Pinkus, Professional Staff; 
and Cynthia Patton, Professional Staff.
    The Chairman. The committee will come to order.
    Today the Committee on House Administration is holding a 
hearing on election reform issues. I would also like to advise 
members of our audience here today that all cellular phones, 
pagers, and other electronic equipment must be silenced to 
prevent interruption at the hearing. Thank you in advance for 
that.
    Also, today's hearing is being broadcast on the Internet. 
It is available on the committee's Web site at www.house.gov/
cha. Accordingly, the hearing will also be available on the Web 
site. We want to welcome you to visit the site and tune into 
the proceedings.
    I have a brief opening statement. We have witnesses who 
have traveled a long way, so I promise I will be brief. It is a 
pleasure to be here today with the members of the committee.
    I want to welcome you to the second in a series of election 
reform hearings held by the Committee on House Administration. 
At this hearing, the committee will hear testimony from working 
election officials, those who actually administer the election 
process.
    At the committee's first hearing on April 25, we heard from 
secretaries of state and representatives of national groups 
interested in election reform.
    Next week, the committee will hold an exposition and a 
hearing in this room featuring vendors of voting equipment, 
their technology, and their views on the election reform 
process.
    I want to mention these things just to show a brief 
history, since we were officially given the task of having the 
hearings on this, and I want to stress that--and a release is 
being passed out as we speak, a joint release by our 
distinguished member, Mr. Hoyer, the Ranking Member from 
Maryland, announcing an agreement in substance to proceed on a 
piece of legislation together on a bipartisan basis, welcoming 
all members from both sides of the aisle, and it outlines a few 
items in principle that we are looking at.
    That does not mean that we have written a bill up. We have 
ideas, and you are here today, and we want to hear from you. 
But I believe and know that by announcing this today, we are 
showing that we are completely serious about this.
    This committee also produced--I think I am correct, the 
first bipartisan House funding measure in 25-some years, as I 
understand it, in a bipartisan manner that funds the 
institution of the House. I believe that we can produce a bill 
that Members on both sides of the aisle will like, and in that 
make sure that the votes are counted.
    As we come up to the 21st century, we stress local control. 
That is why we appreciate your input.
    I just want thank Mr. Hoyer and the members of this 
committee, especially Mr. Hoyer, for working together. People 
have said, well, you know, the issue really is not being talked 
about every day. I believe that the average American expects 
and demands and knows in their heart that we are going to do 
something beyond technology. There are also training issues, 
disenfranchisement issues, military voting, all those issues 
that are out there.
    I just want to let you know that this announcement, in my 
opinion, is a major step and shows that we are heading in the 
direction of producing election reform very soon.
    With that, I yield to the gentleman from Maryland.
    Mr. Hoyer. Thank you, Mr. Chairman. I have a statement, but 
I want to make a comment on your announcement.
    The tone of this committee is what I think President Bush 
had in mind when he said he would be changing the tone. It is a 
tone that is set by Chairman Ney. It is a positive tone that we 
want to do something together.
    There will be things on which we disagree, but on those 
matters that we can agree, Chairman Ney has made it very clear 
that he wants to move those matters forward so that we can make 
progress and not simply yell and scream and posture with one 
another.
    Our witnesses--I think this is probably your first hearing 
this year at the House Administration Committee, but I am sure 
some of the members of the press and others, maybe the staff, 
get tired of hearing Ney and Hoyer say that the other guy is a 
good guy and doing good things. Somebody shook their heads in 
the back of the room, yes, we are tired of hearing that.
    But I think it bears repeating, because I think the 
citizens ought to know that there is an opportunity and there 
is the reality of positive cooperation on moving towards 
something that is important for America. I think this is one of 
them.
    This is the second hearing that the House Administration 
Committee has held on electoral reform in as many weeks. In a 
real sense, today's hearing is a tutorial for this committee on 
the nuts and bolts of election administration taught by the 
people who know the subject best, State and local election 
officials who do it for it a living, who are the professionals, 
who are the most knowledgeable people in this Nation on this 
issue.
    Today's hearing thus continues the learning process we 
began on April 25, during which we learned what State 
secretaries, county officials, and State legislators are doing 
right now.
    John Herson, as you recall, Mr. Chairman, said there were 
over 1,500 bills introduced around the country. This is an 
issue that is receiving extraordinarily high attention at the 
State level.
    We have in this committee some 45 or 50 bills, and maybe 
more now, dealing with either campaign finance reform or 
election reform, or both, so there is a high level of interest 
in this committee.
    All of us on the committee listened last week and asked 
hard questions, and we learned. We learned, for example, that 
Federal assistance is welcomed by Republicans, by Democrats, by 
State Legislatures, by secretaries of state; by essentially 
everyone who testified.
    We learned that States and counties want to partner with 
the Federal Government to develop voluntary election codes. I 
stress ``voluntary.'' That was clearly the theme throughout.
    Historically, States and local subdivisions have run our 
elections, but, just as well, they have run Federal elections 
during that process without any compensation from the Federal 
Government. As you know, the Constitution gives to the 
Congress, and we have the jurisdiction over elections of 
Federal officials, so we need to work in partnership.
    We learned that the cost of running elections is both very 
expensive and a low-budget priority, unfortunately, for most 
State and county governments. That may have changed slightly, 
but it has been a reality.
    All of us on the committee will continue to learn. Next 
week we will host a demonstration, as the Chairman has said, of 
the latest voting technology, and learn what voting machine 
experts have to say. I would hope future hearings will explore 
such key issues as provisional ballots, registration practices, 
and military and overseas voting, clearly very important issues 
for us to deal with.
    Make no mistake, Chairman Ney and I will use this knowledge 
to craft, as he has just said, a bipartisan electoral reform 
measure that recognizes the legitimate role Congress can play 
in modernizing our democracy's infrastructure without 
infringing on the rights of States and local communities.
    Clearly, momentum for genuine electoral reform in my 
opinion is picking up. There has been broad cynicism frankly, 
in this town, that nothing would happen on this issue. I have 
told people that I am optimistic, largely because of the 
positive leadership displayed by our Chairman.
    I want to say also that Roy Blunt, with whom the Chairman 
and I have both talked and Speaker Hastert asked to head up an 
effort, has also been very positive. I expect him to work with 
us as well.
    Since House Administration held its first hearing, the 
Senate Governmental Affairs Committee has held two hearings on 
this issue. Just this week, Senator McCain's Committee on 
Commerce held its first hearing on this. The emerging lesson is 
that electoral reform, for all its complexity, is not on the 
back burner. There is a growing consensus that immediate steps 
must be taken to update voting equipment, improve poll worker 
and voter education, and develop voluntary codes and best 
practices for election administration.
    I am happy to say that all of these immediate steps can be 
taken by House Administration under Chairman Ney's leadership. 
I am confident they will be. Right now it is the States that 
are leading the way. It is time for Congress to step up and 
help them, in partnership, complete this task.
    Just yesterday, Governor Jeb Bush signed into law Florida's 
just-passed election reform bill. I am going to leave any 
further discussion on that to my colleague, Jim Davis. But it 
is a very significant step, and it comes as other States are 
seriously engaged in electoral reform, such as Georgia, and as 
my own chief election official from the State of Maryland, 
Linda Lamone, former Assistant Attorney General of our State, 
will I am sure set forth.
    Among other strengths, Florida's new law will eliminate 
punch cards and many other things. Again, I am going to leave 
that to Jim Davis to discuss.
    That is short-term, in some respects, electoral reform. We 
also need long-term electoral reform. The Florida vote, Mr. 
Chairman, as you saw, was extraordinarily bipartisan. There 
were only two votes against it in the entire legislature; none 
in the Senate, and only two in the House. That is an 
extraordinary accomplishment and an important one. It is 
powerful testimony that when government's executive and 
legislative branches put politics and institutional prerogative 
aside, they can do great things for the people they serve.
    This House, as well as the U.S. Senate, can take 
inspiration from that accomplishment. I would hope, Mr. 
Chairman, that the White House, as Senator McCain asked and 
observed the other day, the White House would respond to our 
request and Senator McCain's request to set forth their 
principles on where they think we ought to go.
    Mr. Chairman, I had the opportunity of questioning Mitch 
Daniels, the director of OMB, this morning as we heard his 
budget. He indicated that the President thought this was an 
important issue, one that needed to be addressed. He would look 
forward to talking with us about resources to accomplish this 
objective. So I thought that was very positive.
    Again, Mr. Chairman, I want to thank you for your 
leadership on this issue, and thank our witnesses for taking 
the time to be with us so late in the day.
    I want to thank the members of the press who are here. It 
is now 5 o'clock on a Thursday afternoon. Most Members have 
left town. I want to thank them for being here, because 
obviously to the extent the people know what we are doing, they 
can then communicate their desires and energy and their 
expectations to the Members.
    This is something we must do. I have referred to it as the 
civil rights issue of the 107th Congress. I believe that. There 
is no more fundamental right in a democracy than the right to 
have one's voice heard in the decision-making process of our 
Nation, of our States, and our local governments.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. We have been joined by three 
distinguished members, Mr. Reynolds of New York, Mr. Mica of 
Florida, and Mr. Davis of Florida.
    We appreciate your participation.
    Any comments?
    The Chairman. Mr. Davis.
    Mr. Davis. Mr. Chairman, I will be brief. The witnesses are 
ready to testify.
    I just want to briefly mention the Florida situation for 
Mr. Reynolds and, I am sure, John Mica as well. Welcome, Pam 
Iorio, my supervisor of elections from Tampa and president of 
the State association, as well as our other distinguished 
witnesses.
    The Florida legislature indeed did pass a bill which 
Governor Jeb Bush has expressed his intention to sign that has 
as its top priority replacing the punch card machines. I think 
it is fair to say there was an enormous temptation, I believe 
on both sides, to play politics with this issue. We all 
understand how that temptation, when it comes to election 
reform, comes up.
    But the legislature came through and adopted a bill, and 
Pam Iorio will talk more about the bill today and how we can 
help. I think one of the reasons it happened is that Floridians 
did exactly what the Chairman just said. There was some polling 
done, some conversations took place, and there was a high 
percentage of Floridians that said to the legislature, you had 
better fix this or else, and they came through.
    I share your view, Mr. Chairman, that the rest of the 
country expects us to step into the breach as well. I am very 
encouraged about the news from you, Mr. Hoyer, about getting 
ready to work on something.
    The Chairman. Thank you.
    Other comments? Mr. Mica?
    Mr. Mica. Well, I don't know if I am pleased if the Florida 
legislature has acted in such rapid fashion. I think a lot has 
been made about some of our problems in Florida, and I think we 
have heard that the solution, at least in the preliminary 
hearings that we have heard here, the solution is very 
expensive.
    We had one state secretary testify it was, I think, $130 
million. We spent $30 million, I believe, in our effort this 
week. I think some of this is expensive window dressing.
    What is funny is that they replaced it with--we are going 
to get rid of the punch cards which have been some of the 
problem. Other jurisdictions still have this. But what they are 
replacing it with--I sat and watched for days the recounting 
and the counts--they are replacing it with some of that other 
equipment. And I saw countless ballots so simple to fill out, 
all you had to do was take a pen and complete one line like 
this, and I saw hundreds of ballots where people circled them, 
x'd them, drew lines across them.
    I would not take too much consolation in spending $30 
million to get rid of part of the problem.
    This is not the civil rights issue of our era. I think we 
have long passed an era when anyone is denied a vote, at least 
in Florida, that I have seen. I would strongly support 
enforcement on Election Day to make certain that remains in 
place, but I don't think that was the case, and it should not 
be portrayed in that fashion.
    Even if it passed by two votes, I still think it was, it 
does not educate the elector, which is so important. As I said, 
Thomas Jefferson--at our last hearing--he said it was the 
cornerstone of democracy. So we will still continue to have 
problems. But if it makes people feel good, I want to feel 
good, too, and I am pleased that everybody else is feeling good 
today. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Mica.
    Mr. Reynolds.
    Mr. Reynolds. Mr. Chairman, I think both you and our 
Ranking Member, Mr. Hoyer, have set the tone and the tenor and 
goals of the House Administration Committee.
    While I am new on this committee, I am an up-through-the-
ranks legislator that has watched town, county, and State 
address election issues and fairness of elections in New York.
    I very much look forward to the testimony today to talk 
about what I call the front-line practitioners of fair 
elections.
    We have had the opportunity of hearing how the State wades 
through those, from the secretaries of state and other forms of 
election officials. We have the opportunity today to listen to 
this committee hearing on our front line, and that might help 
us find awareness of how practices differ in other parts of the 
country, both good and bad, things I may be an expert on in New 
York.
    I think this will be a very important opportunity for us to 
listen to the front-line message, where the Federal Government 
might become more aware of what we should be doing in the 
investment of solid elections across the country.
    I thank both of you for setting the tenor and goals of what 
this committee needs to do.
    The Chairman. Thank you very much.
    With that, we will introduce the panel.
    We have Doug Lewis, Director of the Elections Center; Conny 
McCormack, Los Angeles County Registrar Recorder, County Clerk; 
Connie Schmidt, Elections Commissioner, Johnson County, Kansas; 
Carolyn Jackson, Administration of Elections, Hamilton County, 
Tennessee; Pam Iorio, Supervisor of Elections, Hillsborough 
County, Florida, President of the Florida State Association of 
Supervisors of Elections.
    We also have Linda Lamone, Administrator, Maryland State 
Board of Elections.
    I want to thank all of the witnesses for coming here to the 
Capitol.

   STATEMENTS OF DOUG LEWIS, DIRECTOR, THE ELECTION CENTER, 
      HOUSTON, TEXAS; PAM IORIO, SUPERVISOR OF ELECTIONS, 
    HILLSBOROUGH COUNTY, FLORIDA; CONNIE SCHMIDT, ELECTION 
    COMMISSIONER, JOHNSON COUNTY, KANSAS; CAROLYN JACKSON, 
     ADMINISTRATOR OF ELECTIONS, HAMILTON COUNTY ELECTION 
COMMISSION, CHATTANOOGA, TENNESSEE; CONNY McCORMACK, REGISTRAR-
 RECORDER/COUNTY CLERK, LOS ANGELES COUNTY; AND LINDA LAMONE, 
        ADMINISTRATOR, MARYLAND STATE BOARD OF ELECTIONS

    The Chairman. I will start with Mr. Lewis.

                   STATEMENT OF R. DOUG LEWIS

    Mr. Lewis. Congressman, thank you.
    Actually, quite frankly, I am extraordinarily pleased to 
hear the tenor and the tone and the commitment that seems to be 
yours in terms of trying to find the right solutions here.
    Election 2000 was not really a crucifixion of Florida, 
because it was an indication of what we have known are systemic 
problems throughout elections in America for quite some time. 
There was also some new information that we learned.
    Certainly learning that voting systems allowed more voter 
errors in some cases than others because new information to us, 
and particularly in terms of the depth of that information. So 
we are going to have to learn to do some things to make sure 
that does not happen again.
    Certainly, even though we have been inclined to know that 
inexperienced voters apparently did not know how to vote, we 
did not really know the depth of that until we saw this 
election, so we are learning something there in terms of what 
we are going to have to concentrate on.
    I am going to direct my comments, because more often than 
not I keep getting asked, what is it that we can do--meaning 
you, the Congress--what is it that is necessary to be done at a 
Federal level in terms of elections in America, and how do we 
do that?
    The Election Center has a National Task Force on Elections 
Reform that had 37 State and local election administrators on 
it, and will be presenting its information sometime next month, 
that covers basically 30 subject matter areas with 80 specific 
recommendations.
    I am not going to try to prerelease that today, because it 
is more detailed than you are going to be able to withstand 
today or and have interest in, and we have other folks that 
need to be heard, too.
    Let me say, though, that there are some areas in which all 
of us, I think, in this elections community welcome your input 
and your support and your Federal dollars.
    Certainly when it comes to voting equipment, I am not going 
to defend the punch cards any longer. I have done that because 
part of what they were attacked about was incorrect.
    Let me try to make some statements. So you all know, voting 
systems do not count votes inaccurately. That is a myth that 
developed in this election and that the news media did not get 
straight until almost recently.
    Voters make more errors on certain types of voting systems, 
but voting systems are tested to make sure that they have an 
accuracy of counting votes to 1 vote within 1 million votes; so 
that you understand, there is a distinct difference here.
    Having said that, you know, it is not enough for us to then 
just say that we can ignore voter error, because we cannot. But 
the truth is, we have not tracked any of the data that is 
related to that, either at the local level or at the State 
level or at the Federal level.
    Without having that kind of data in terms of how many 
overvotes are cast, how many undervotes are cast, and to then 
establish a benchmark norm, and for us to know what is it then 
that deviates from the norm so we can bring information to you 
and say, folks, we obviously recognize we have a problem and we 
are going to go after it and fix these problems, so we are 
going to have to start tracking that.
    In terms of database, the disconnects between voters and 
the voting systems showed us--the voter registration systems 
thought they registered at DMV or Social Services or wherever, 
and that information did not get translated and sent to the 
elections community, we have to fix that problem. We know we 
have to fix that problem.
    But that is not an easy solution, because actually the NVRA 
sets up nobody in charge. It gives us new agencies to handle 
this and makes them responsible for having voter registration, 
but then does not make them accountable to an election official 
anywhere for whether they deliver that data appropriately or 
not.
    So whether we ever get charged with that or with the 
responsibility for that, we are going to find a way to make 
sure that disconnection does not happen in the future.
    Certainly the most important part of all of this, let me 
say to you, voting systems today are better than they were 7 
years ago because of the Federal voting system standards. 
Voting systems are better today than they were 3 years ago 
because of the Federal voting systems standards.
    We need your involvement and your commitment to put that in 
law and to give that to the OEA as its responsibility with 
earmarked funds. You see in my testimony where I have kind of 
estimated what that will cost you.
    We need the operational practice standards as the component 
part of that, so that we know what to do in terms of specific 
types of voting systems; what is good practice, what is not 
good practice; what is it you must do every time, what is it 
you should do, and what becomes good practice. We need that.
    We know that those standards are probably going to take 
us--if we threw a lot of money and talent at it, we could maybe 
do it in 2, 2\1/2\ years; but more likely it will take us 4 
years to actually develop those to where they become good 
standards. You see kind of what I estimate that would cost to 
do that.
    Voting systems research is what I just talked about. We 
need to gather data. In fact, the Federal Election Commissioner 
of the Office of Election Administration--I don't care if it is 
housed with FEC, as long as it is with the OEA, but certainly 
they need to be the ones who know what voting systems are in 
America.
    We actually gave a Federal grant to them, to a private 
company, to do that. The private company then took the data, 
and it sells the data to this day, because we cannot keep that 
because we do not have staff or funds assigned to that project. 
Certainly we need that.
    So it is not just over- and under-votes that we track, but 
it is also when problems occur with those systems, so we know 
what those problems are and can tell others in the country, and 
so we can also not have to rely on the vendors when one of 
these people wants to buy a system; that they know who else in 
the country has that system, so they can find out what the 
foibles and flaws and support levels and so on are with it.
    We certainly need a new elections class of mail. NVRA said 
we were going to get first-class mail service at third-class 
rates, which the Postal Service said, ``No, that is not exactly 
what it said. Congress knew that it did not exactly word it 
correctly, and therefore we are not going to give that to 
you.''
    Not only that, then it sets up so many restrictions that 
most of our people, it turns out, after really trying to apply 
it, cannot use it.
    We are saying to you, we need a new level of first-class 
mail called ``elections mail'' that then gives us 50 percent of 
whatever the current first-class rates are. Then there are a 
whole lot more complicated things that I won't go into here.
    But in order to make sure that the Postal Service 
understands that we are going to follow that all the way 
through, we have a whole series of recommendations on that. 
That is probably going to cost us in the order of $100 million 
a year in order to fund that, because the Postal Service does 
not want to subsidize it, obviously, out of their budget. We 
would not expect them to.
    But at the same time, it will help us then with all those 
NVRA mandated mailings to actually be able to pay for them; and 
not only with those, but then in terms of voter education 
programs, of sample ballots, voter pamphlets, voter information 
of where the polling place is, or even how to vote, sending out 
instructional materials on how to vote and how to use a voting 
system. It is important that we have this kind of subsidy.
    I will not then go into all the State issues, but let me 
wrap up with some things that we think need to be done.
    Obviously, the States are going to have to define what 
constitutes a vote. Voter intent is not a standard, and it 
became hugely clear that in Florida, the absence of knowing 
what constituted a vote before they started the counting 
process is what screwed up the process.
    It was not that these folks are--particularly Pam and those 
Florida folks, not that they were not going to try, but Pam had 
her definition of it, and Jane Carol had her definition of it, 
and Teresa Lapore had her definition of it, and when the 
lawyers descended upon them, none of them liked any of those 
definitions, so they all kept trying to make up their own 
definition of what constituted the vote.
    I don't blame the campaigns for that. That is what they 
have to do in that situation.
    In terms of uniform poll closing hours, please do not do 
that to us. It does not solve a problem. It is a solution with 
no problem. The truth is that the networks, the news networks, 
take and use manufactured news. They get out there and they 
take that, based on the sampling of people who have voted, and 
then report that as if that were actual votes.
    It is the networks that ought not to be let off the hook 
here, but they are the ones who are behind the Uniform Poll 
Closing Act, so we can have a very complicated act to try to 
follow that really still does not solve the problem. So do not 
give us that, please.
    Certainly weekend, 3-day holiday voting, we are willing to 
buy into holiday voting if you all want to attempt it. Most of 
us think it is going to end up meaning a 4-day weekend, and 
that we will have more trouble getting poll workers, rather 
than less.
    But if you all want to try that and want to try a national 
holiday on that, at least it frees up polling places for us so 
that we have those. Maybe it will free up some additional 
Election Day workers, particularly if we can pick up Federal 
Government, State government, and local government employees 
and roll them in as poll workers, and maybe we can improve the 
situation with poll workers.
    I could go on. Internet voting is the other one. I am 
surprised how often we continue to hear very responsible people 
who continue to say, oh, yes, we ought to have Internet voting. 
I even listened to Donna Brazil on C-Span the other day talking 
about how we ought to have Internet voting.
    Folks, look, we have had the best technological mind in 
America say it is not safe and secure and cannot be used as a 
technology yet. Despite the fact that Bell Telephone--I 
remember 30 years ago when Bell Labs went out there and told 
all of us that we were going to be voting on the new invention 
they had, a touch tone telephone. And 30 years later, we are 
not doing it.
    We may be able to make Internet voting yet, and hopefully 
most of us want to be able to make it work, but only if we can 
do it safely and securely. That is my testimony. Thank you.
    The Chairman. Thank you very much.
    We will move on to Pam Iorio.

                     STATEMENT OF PAM IORIO

    Ms. Iorio. Thank you, Chairman Ney, and Members of 
Congress. I appreciate this opportunity to address the House 
Administration Committee.
    My name is Pam Iorio. I am serving my third term as the 
supervisor of elections in Hillsborough County, Florida. I am 
also the president of the Florida State Association of 
Supervisors of Elections.
    The closeness of the Presidential election of 2000 
highlighted the frailties of many aspects of our election 
system. In Florida, our election infrastructure was revealed as 
a hodge-podge of voting systems, ranging from the paper ballot 
to lever machines to punch cards to optical scan.
    The voting system used by almost every major urban county 
in the State was based on 1970s technology, and that led to a 
large number of errors made by voters on Election Day that 
effectively negated thousands of votes.
    During the past Presidential election in Florida, a race 
won by 537 votes, there were 105,000 votes for President that 
were discarded because the voter voted for more than one 
candidate for President. This is called overvoting.
    The number of overvotes varied dramatically according to 
the voting system used by each county. The number was higher in 
punch card and central count optical scan counties, and lower 
in precinct-based optical scan counties.
    Some analysts look at the combined over- and undervote when 
judging the performance of voting systems. An undervote is when 
a voter skips a race altogether. This is usually a conscious 
decision on the part of the voter, but can be attributed to 
ballot design or unfamiliarity with a particular type of 
technology.
    In the Florida 2000 Presidential election, the combined 
under- and overvote differed among voting systems. Punch card 
counties had a 3.93 percent rate; central count optical scan 
had a 5.68 percent rate; the one county that utilized the paper 
ballot had a 6.32 percent rate; and the lowest rate was the 
precinct-based optical scan at .83 percent.
    Thus, we can see that the type of voting system used had an 
effect on the number of votes that were counted for President 
in each county.
    Now, last week the Florida legislature passed the most 
sweeping election reform in Florida history. The focus of that 
reform was on change in voting technology.
    The new law decertifies the use of punch card systems and 
any other voting system that is not precinct-based. The law 
specifically states that a county must use an electronic or 
electromechanical precinct count tabulation voting system; and 
further, that the voting system at the precinct must be set up 
to reject a ballot and provide the elector an opportunity to 
correct the ballot where the elector has overvoted a race.
    Many States are debating whether they too should discard 
their punch cards and other older technologies. The lesson from 
the November election is that election technology and 
investment in that technology must at least keep pace with the 
technological advances in other aspects of our lives.
    When it comes to the administration of elections, the 
Nation should utilize the very best technology. We must not 
stand still, and we must move forward and bring about positive 
change.
    Many counties across the Nation cannot change technologies 
because of the expense. The Florida legislature recognized this 
in their Election Reform Act by allocating grants to counties 
to help pay for the transition to new technology. Counties with 
populations of less than 75,000 will receive $7,500 per 
precinct, and larger counties will receive $3,750 per precinct.
    This is an appropriate distribution of funds, since many 
small counties in Florida have a very limited tax base and 
cannot possibly afford funds for new equipment. However, many 
of the larger urban counties across the Nation will be looking 
at a paperless direct recording system, and those systems cost 
sometimes four times as much as precinct-based optical scan.
    For example, in my county, we can move to precinct-based 
optical scan for $3 million, but a move to touch screen would 
cost at least $12 million.
    Large urban counties in Florida such as Hillsborough, 
Broward, Orange, Duvall, Miami-Dade and Palm Beach have large 
infrastructure needs. It is difficult for local governments to 
allocate funds for expensive direct recording systems.
    Yet a paperless balloting system makes since for large 
urban centers. We have here today the election official from 
Los Angeles County, 4.1 million voters, and the requirement to 
produce a ballot in seven different languages; a supervisor in 
Miami-Dade, 1 million voters and ballots in three different 
languages. Printing paper ballots for these large jurisdictions 
is cumbersome, inefficient, and very expensive.
    So what is the role of the Federal Government in helping 
counties move to new technology? Perhaps we should first ask 
what has been the historic role of the Federal Government in 
the elections process.
    We know that the Federal Government involves itself in the 
election process to ensure fairness to all citizens, to level 
the playing field for all voters.
    The 1965 Voting Rights Act, for example, told States they 
could not enact a poll tax or literacy test as a prerequisite 
for voting. There the Federal Government recognized an 
inequity: that some voters were being treated differently than 
others.
    The passage of the National Voter Registration Act in 1993 
was another milestone piece of legislation. It mandated a 
uniform method of registration across the country so citizens 
everywhere would have equal access to the registration process.
    Today the issue is one of difference in technology that 
creates an unequal playing field for voters. A voter in Florida 
in 2002 will have an opportunity to correct an error before his 
or her vote is actually counted. A voter in Illinois, still 
using the punch card system, will not be afforded that same 
opportunity.
    A county with a strong tax base will be able to afford the 
very best technology that eliminates the overvote. A county 
with a poor tax base is stuck with technology of the 1970s.
    Is this fair to the voters of our country? Does not the 
Federal Government have a role to play to ensure that all 
citizens of this Nation, regardless of the economic 
circumstances of their particular county, have the right to the 
best voting technology?
    The Voting Improvement Act that is before your committee 
today represents the involvement of the Federal Government in 
ensuring that all voters across this Nation have access to 
better, more advanced election technology.
    The threshold for election technology in all 3,155 counties 
across this Nation should be precinct-based systems that can 
alert the voter that he or she has made an error, and gives the 
voter an opportunity to correct the error.
    The current figure in the bill of $6,000 per precinct is a 
good start, but again large urban counties will need a greater 
funding level to help them move to the more advanced direct 
voting devices.
    I believe that ultimately the Presidential election of 2000 
will be about how we as a National responded to the problems 
and challenges we faced. Florida has responded well to the 
challenges of November. We identified the problems, crafted and 
passed legislation, and formed a funding partnership between 
State and local governments. We have striven for a model 
election system.
    The question today is how will the Federal Government 
respond to the problems of the past election? Will the Federal 
Government play a role in bringing technological equity to all 
voters?
    The problems revealed through this election process gives 
us an opportunity to do what Americans do best: bring about 
positive change. Through the work of Federal, State, and local 
governments, it can be the lasting legacy of this past 
election.
    Thank you very much for this opportunity to address your 
committee today.
    The Chairman. Thank you for your testimony.
    Next will be Connie Schmidt.

                  STATEMENT OF CONNIE SCHMIDT

    Ms. Schmidt. Chairman Ney, distinguished members of the 
Committee, thank you for the opportunity to appear before you 
to discuss election reform issues.
    My name is Connie Schmidt, and I serve as the election 
commissioner of Johnson County, Kansas. We are located in the 
greater Kansas City metropolitan area.
    Our county has a history of growth in population and 
leadership in voting systems. In 1987 we were one of the first 
in the country to purchase direct record electronic voting 
equipment. Today, population growth, advances in voting 
technology, and changes in our State laws affecting elections 
have brought our county to another decision on the purchase of 
touch screen voting computers.
    Our county, like others throughout the country, is not 
immune to voting disasters. The high voter turnout of the 1992 
Presidential election created very long lines at polling places 
throughout the country. Johnson County also experienced a 27 
percent increase in voter registration in the 3-month period 
prior to that election. That translated to extremely long lines 
at our polls in November, 1992 with a record 89 percent voter 
turnout. Many of our voters waited in line for 3 or more hours 
to cast their votes.
    The Secretary of State's Office in Kansas and the State 
legislature recognized the importance of making voting 
convenient and accessible, and in 1995 they approved an early 
advanced voting law which actually provides for ``no-excuse'' 
voting, in person or by mail.
    Advanced voting is extremely popular in Johnson County. In 
the 1996 and again in the 2000 Presidential election, our 
advanced votes represented over 35 percent of the total votes 
cast in our county. We had minimal lines at the precinct voting 
locations on Election Day, and most importantly to us, the 
voters were pleased that they had an option of casting their 
ballots at their convenience.
    Kansas law also provides for provisional ballots to be cast 
by voters. No voter is turned away on Election Day. Every 
provisional ballot is researched individually between Election 
Day and the canvass of the election, with a recommendation to 
count or not count based on State law.
    As a member of the Election Center's Election Reform Task 
Force, I have had the privilege of participating with my 
colleagues in an honest evaluation of the election process, 
including exactly how well we do our jobs.
    I must tell you that election administrators are the most 
dedicated and committed group of individuals you will ever 
meet. We are perfectionists and control freaks, and we are 
proud of it. We are the gatekeepers of democracy, and we are 
committed to excellence, the highest level of integrity, and, 
most importantly, to open and impartial elections.
    We take great pride in the public's confidence and trust in 
our ability to do our jobs, and we are deeply saddened that the 
aftermath of the November 2000 election has eroded some of that 
trust. We can rebuild voter confidence, and we believe that it 
has to start at the grassroots level.
    To local government, elections are an unfunded mandate. 
This means that election administrators are always vying for 
funding against libraries, roads and bridges, Meals on Wheels, 
and park and recreation activities, all items that impact 
residents on a daily basis.
    Elections are at the bottom of the funding list because 
they are perceived as only a once- or twice-a year activity. 
Any effort to replace aging voting equipment is a very, very 
hard sell. To say that we all need additional dollars is a 
given, but to say that we all need the same type of voting 
equipment is not.
    For example, Kansas has 21 counties that vote on hand-
counted paper ballots, and it works; 81 counties vote on 
optical scan paper ballots; and 3 large counties cast their 
ballots on electronic voting machines.
    This diversity in Kansas exists throughout the entire 
country. What works for one county does not necessarily work 
for all. The reality is that there are flaws in the system, and 
the media magnified them during the November 2000 election.
    If we as election administrators could live in a perfect 
world, the voter registration records would be accurate, 
complete, and always up to date. But the reality is that the 
voter files are inflated due to mandatory compliance with the 
NVRA.
    In a perfect world, there would be an abundance of 
accessible voting locations, but the reality is that it is 
difficult to find those locations, and often not possible to 
find accessible ones.
    In the perfect world, elections would be easy to program 
and the voting equipment would always work, but the reality is 
that elections are complicated and machines break down.
    In the perfect world, there would always be an abundant 
pool of trained election workers to choose from for every 
Election Day, but the reality is that approximately 98 percent 
of our election workers are senior citizens, and the pool is 
not being replenished.
    In the perfect world, budget dollars would be available to 
educate the voters, purchase new voting equipment, and increase 
election workers' salaries, but again, the reality is that 
elections are an unfunded mandate.
    In the perfect world, the voters would research candidates 
and issues prior to Election Day, and everyone would celebrate 
democracy by casting their vote. But as we all know, the 
reality is that voter participation is declining, particularly 
among 18- and 24-year-olds.
    In the perfect world, election administrators would have 
access to an election resource library of best practices, but 
the reality is that that does not exist, and it will require 
Federal funding.
    In the perfect world, election administrators would receive 
mandatory federally funded training on Federal and State 
election procedures, but the reality is that while the Election 
Center has an excellent certification program, many election 
administrators cannot afford to attend.
    In the perfect world, there would be uniform, voluntary 
voting system standards and operating procedures maintained by 
election administrators at the State and local level. But the 
reality is the Office of Election Administration of the FEC is 
seriously underfunded. Voting system standards are not up to 
date, operational standards do not exist, and there is no 
clearinghouse for reporting problems with voting systems.
    In the perfect world, there would be clear rules to 
determine voter intent within each State. But the reality is 
that voter intent standards do not exist in all States.
    With Federal funding, it is possible to address many of 
these issues. We must join together collectively, at the local, 
State, and Federal level to share resources and to find 
creative and innovative solutions.
    In our county, we have implemented several election worker 
recruitment programs involving civic organizations, corporate 
business owners, and 16- and 17-year-old high school students.
    Since 1998, we have recruited a total of 506 election 
workers through those programs. In late 1999, again in response 
to a lack of funding for voter outreach activities, our office 
recruited citizen leaders, including high school students and 
college students, to create a nonpartisan, nonprofit Promote 
the Vote Foundation.
    In election 2000, over 13,000 students participated in 
programs sponsored by that Foundation. Many similar programs 
are ongoing in other communities, and they are all focused on 
increasing voter eduction and participation.
    So we are asking for Federal funding for voting equipment 
and centralized voter registration software for election 
administrator certification training programs and for 
sufficient funding of the Office of Election Administration to 
develop and maintain those uniform voluntary voting system 
standards.
    As election administrators we believe that nurturing and 
protecting democracy is a team effort, a community-wide, 
statewide, and nationwide team effort. We ask that you join 
with us as we work to improve the administration of elections 
in America and to rebuild voter confidence.
    Thank you very much for the opportunity to be here today.
    The Chairman. Thank you for testifying.
    Next, Carolyn Jackson.

                  STATEMENT OF CAROLYN JACKSON

    Ms. Jackson. Chairman Ney and other members of the 
Committee, it is an honor to be asked to appear before you to 
present my views from the local level of election 
administration.
    I have been an election official since 1982. I will attempt 
in the time allotted to present to you a brief analysis of the 
problems and needs on the local level.
    It is a dreadful feeling to know that you are expected to 
produce flawless elections with equipment that is antiquated 
and no longer serviceable. A better understanding of the 
requirements and needs from election officials would enhance 
the final product.
    The publicity from the November election has caused a level 
of interest from all walks of life, which can be beneficial in 
that the attention received has resulted in a long overdue 
dialogue among all levels of government and voters of our great 
country.
    It is my hope this dialogue will produce a final product 
that will ensure quality equipment and a means of communication 
to the voters we serve. The voters deserve and expect education 
and the assurance their vote is counted on Election Day, 
whether it be early, absentee, or on the regular Election Day.
    Voters should accept the responsibility of maintaining an 
accurate and up-to-date voter registration and change of 
address. This process can be stressed through voter education, 
which may require additional funding from sources that normally 
do not understand the importance of voter education nor the 
process itself.
    There are mandates from the Federal and State levels that 
have caused additional financial burdens on the election 
commissions that are already underfunded, such as the postage 
rates we must endure in implementing the NVRA.
    Hopefully, out of this current crisis you will take time to 
pursue the concerns surrounding the NVRA. Again, it has been an 
honor to be among the local officials given the opportunity to 
present some of our concerns.
    The Chairman. Thank you very much for your testimony.
    Next, Conny McCormack.

                  STATEMENT OF CONNY McCORMACK

    Ms. McCormack. Congressman, it is definitely an honor to be 
here today to give you testimony on this very important topic 
of election reform.
    This is my 20th year as an elections administrator in this 
country. I started in Dallas, Texas, where I was election 
administrator for 6 years, and then moved to San Diego, 
California; and now for the past 5 years, I have been the head 
of elections of Los Angeles.
    Los Angeles has the largest voter base in the country. We 
have 4.1 million registered voters and 5,000 voting precincts. 
Last November, we voted a record high 2,770,000 voters, which 
was more ballots cast in our county and counted in my office 
than in 41 of the 50 states.
    Indeed, we had more absentee ballots in my country than 
were cast in eight of the States. We have 520,000 absentee by 
mail ballots.
    For a Presidential election, the logistics are similar to a 
military deployment. We hire 25,131 poll workers. As we said, 
we deal with over 500,000 absentee ballots. Some days we have 
35,000 applications a day. We turn them around in a one-day 
turnaround time. Clearly this takes hundreds of additional 
staff to do that.
    We have been on the same voting system in Los Angeles 
County. I would like to think it was a 1970s system, Pam. It is 
a 1960s system, the punch card voting system, because we 
started it in Los Angeles in 1968. I can tell you, to this 
moment we are a long way away from getting rid of it, because 
we have no money. To do it is something we would love to do.
    We started on this process in conjunction with the November 
election, before what happened in November. Starting in 
October, we instituted a pilot program of the DRE, touch screen 
voting in Los Angeles. It was a huge success. Out of the 2.7 
million voters, we had 27,963 of our voters, including myself, 
who cast their ballot on a DRE system during the early voting 
period at one of the nine locations we set up around the 
county, where any one of our 4.1 million voters could have gone 
to any of these locations and cast their ballot.
    To do this was a huge technology challenge, because the 
first thing that happened when they walked in was to have to 
qualify that voter and then set up which ballot they were going 
to get on the DRE. Because we have 17 congressional 
representatives in our county, and many assembly and water 
boards, we had 263 different types of ballots, depending on 
which one, what area you lived in--in seven languages--and we 
had to count them into one of the 5,000 precincts.
    When you multiply 5,000 times 263 times 7, each one of our 
DREs had 9 million combinations in them and were activated 
within 4 seconds of pulling up the correct ballot for that 
voter.
    It was a huge success to the voter. Ninety-nine percent of 
them filled out a survey and said they loved it so much better 
than punch cards. Not a single overvote can be cast, and not a 
single one was cast because you cannot overvote on a DRE 
system.
    This was not the case with our punch card system, where we 
had a half a percent of our voters in the precincts vote for 
more than one candidate for President. I have to believe that 
was inadvertent. That was 13,000 people who lost their vote. We 
had a 2.2 percent undervote.
    There is a natural undervote for President. We had a .5 
percent undervote on the DRE, as did Riverside County, which is 
all DRE. So it is probably about a half a percent of the people 
who did not want to vote or were confused, or were just in the 
middle of indecision, like the rest of the country on who to 
vote for.
    So take away that half percent, that means we have 1.7 
percent of the people who probably did not mean to undervote 
and could not understand the system. That was another 61,000 
people.
    So taken together, these are a lot of people who did not 
have their votes counted that would have if we did not have a 
1960s-based system.
    Ms. McCormack [continuing]. Additionally, the DRE system 
that we put in place for the pilot program allowed blind and 
visually impaired voters to vote without assistance, and this 
was a huge success. We partnered with the Braille Institute and 
the Center for the Partially Sighted at their own expense, 
since we have no money to do this.
    They mailed out to 8,000 of their own members a brochure 
that we developed with them, letting the blind know that they 
could go to one of these nine locations and vote without 
assistance. We had hundreds of voters, many accompanied only by 
Seeing Eye dogs, come into our sites to vote for the first time 
in their lives without anyone helping them, and it was a 
wonderful experience.
    Similarly, for people who use a different language, whose 
first language is not English--and we are very diverse in Los 
Angeles, propositions on the ballot are complex, they are hard 
to understand in English--and we had hundreds of our voters 
choose one of the seven languages, and we are very, very 
pleased that they were able to understand the ballot in a much 
better way than in the past.
    None of these are available on punch card. We cannot do 
this type of work with a punch card system. We have a 
translation of the punch card ballot, which is cumbersome and 
is very costly, so clearly we would like to move into a more 
modern voting system.
    So what are the obstacles to doing that? Well, the obstacle 
is, one--and all of you know what it is--we don't have 
sufficient funding, and our pilot project only cost us $70,000 
to institute it. But for us to go countywide on a modern DRE 
voting system in Los Angeles County would cost, initial 
purchase of $100 million. We don't have $100 million, and as 
Pam Iorio mentioned, the op-scan system does not work in Los 
Angeles, and part of my testimony explains why that doesn't 
work with seven languages. And replacing one piece of paper 
with another paper ballot, we would be spending millions of 
dollars on ballots every election, and it would just be 
inappropriate, and we would need another building to store them 
in. So that isn't going to work.
    Our election last November, with a 7-cents-a-ballot-card, 
the cheapest system you can have--we only spent a half a 
million dollars on ballot cards. It was a very low cost. Our 
election costs us $20.4 million to put on. We had old, fully 
depreciated voting equipment; it still cost us $20.4 million.
    There were water districts on the ballot. There were cities 
on the ballot, and each one of the people who were on the 
ballot in jurisdictions paid their proportional share, with the 
very noted exception of the Federal Government. We listed the 
President, the Vice President, Senators and U.S. 
Representatives, and for that, we did not get a dime.
    Each of these other jurisdictions cannot afford to pay for 
their share of the ballot, but they do. I do think it is time 
the Federal Government paid their fair share to be on a ballot, 
which they are on for every election.
    We also have tremendous unfunded mandates. Out of our $20.4 
million for the election, $2 million of that was for compliance 
with the Voting Rights Act and to produce the ballot in the 
seven languages and the translations and the oral assistance at 
the polls, again, an unfunded mandate that we would like to see 
some dollars come to us.
    But how are we going to get this money? Our local 
government, currently our county board of supervisors, is very 
much interested in converting, but they don't have the money, 
and our health department has a $184 million deficit right now. 
We will remain frustratingly elusive that the top 10 priorities 
of government, that voting is always the 11th. We forever are 
relegated to the 11th on the top 10.
    In our State government, we have bills right now. We are 
hoping to get money, but if we weren't spending an additional 
$54 million a day on the spot market to buy electricity, we 
would probably be getting the $300 million that our speaker of 
the state assembly wants to give us, but we have spent $5 
billion since January that was unbudgeted on electricity with 
no end in sight, and so the obscurity, at best, and oblivion, 
at worst, that bill at the State level, we will not be seeing 
the money.
    I would like to echo, elections class of mail would 
sincerely help us as a means to do this. And I would also like 
to say that the Federal Government spends $30 million every 
year to support democracy building overseas. We don't spend a 
dime here. I do think that democracy here is worth at least 
what it is worth to support the countries overseas that we 
support in democracy building. I think it is time that we did 
that.
    The Census last year, the $100 million was spent by the 
Federal Government on an advertising campaign. That was very 
valuable, and it really helped in Los Angeles. We had a much 
higher turnout of people filling out the Census. They 
understood what it was for, and they understood the importance 
of it. And a similar type of campaign at the national level to 
advertise the process of voting, the deadlines, the voter 
registration, how you actually vote, PSAs, how you touch the 
screen or push a--punch a card would go a long way toward 
making our process more effective.
    I have many things else I would like to say, but I see I am 
over my time. I am sure you have lots of questions, so I am 
going to finish my testimony at this time.
    Thank you.
    The Chairman. Thank you very much.
    Our last witness, Linda Lamone.

                  STATEMENT OF LINDA H. LAMONE

    Ms. Lamone. Thank you very much, Mr. Chairman. It is an 
honor to be here. If feel like the little sister to Conny, who 
has only 2.7 million registered voters in Maryland. But in any 
event, Maryland is in a very fortunate position, because we 
started election reform some time ago.
    We had a very close gubernatorial race in 1994, and the 
emphasis has been on addressing some of the issues that were 
raised as a result of that election. The governor and the 
general assembly have directed us to create a total election 
management system, which we have done. We are in the process of 
finally implementing a statewide voter registration system. We 
have rewritten all the software, created new software for all 
of the processes that occur in the period of conducting an 
election from defining the ballot to posting the election 
results on the Web page, to developing campaign finance 
reporting software and database for campaign expenditures and 
contributions that is on a searchable Web--on the Web page on a 
searchable database.
    The last piece of the pie was approved by the Maryland 
general assembly at this last session, this last winter, and 
that is a uniform voting system that can accommodate 
individuals with disabilities. We are not going to be 
purchasing it; we will be leasing it. The State is going to be 
providing half of the funding to this, and of course would 
welcome Federal dollars to assist us in doing this. The 
governor and the general assembly would like me to accomplish 
this by the September election in 2002. We hope that we will be 
able to meet that desire.
    As I said, Maryland has been undergoing election reform now 
for approximately 5 years. The general assembly completely 
rewrote the election code in 1997. They have centralized 
election administration in Maryland under the State board of 
elections with me as its administrator. I am a nonpartisan, 
appointed official. I am a public officer of the State board of 
elections. There are five people appointed by the governor, 
confirmed by the Senate, three of the majority party, two of 
the minority party.
    We have a very centralized authority in the State board 
over the administration of elections. There is much greater 
State funding in Maryland than, I think, in a lot of other 
jurisdictions. All of the software development and most of the 
new hardware that we have placed in the counties have been paid 
for by the State. All the communications costs are paid by the 
State of Maryland. The result is that we have very consistent 
standards. We are very lucky.
    We have one voter registration application for the State. 
We have uniform procedures for virtually every process that the 
local election boards have to follow, and I submitted some 
testimony to the committee which outlines a lot of the things 
that we have done in the last 5 years.
    And I recognize that this is not particularly typical of 
what goes on in many other States, nor may it be welcome, but 
it is what Maryland decided to do, and it seems to be working 
well for us.
    You have heard a lot of suggestions for solutions. I will 
not repeat them. I think we all agree with what has been said 
here today, probably nationally. I would like to add two of my 
own that haven't--one of which has not been mentioned today and 
one that is sort of--we are implementing in Maryland for the 
first time.
    As you all know, our society is very mobile, and it is very 
difficult for all of us to keep track of our registered voters. 
We have no way of knowing whether or not people are registered 
in two different States. There is no national database like 
there is for commercial drivers licenses, so we have no way of 
checking.
    In Maryland, if you are convicted of a second infamous 
crime, you are forever disenfranchised. I have no way of 
knowing if people have been convicted of a crime in another 
State, let alone if they have been sometimes convicted of two 
crimes in Maryland, although we are working on that. It could 
be a Federal conviction in one State and a State conviction in 
Maryland, but still, unless the person affirmatively tells us 
that he or she has had that second conviction, there is no way 
of tracking the voters, is what I am saying; and the bottom 
line is, we need some sort of identification number that we can 
use to track voters. Even if it is within a State, it would 
help us a long way to keeping our voter registration records 
cleaner and track our voters and not have the motor voter 
problems that we had in this last election. As I am sure you 
have heard from other people, under motor voter, people would 
go to the Motor Vehicle Administration, which is what we call 
the agency in Maryland, to change their address. There are 
signs all over the place, ``Register to vote here,'' ``Vote 
here,'' ``Get your voter registration applciation here''--
change their address. And it has a block on there that says, 
which is required by NVRA, ``Do you want this to be for voter 
registration purposes as well?'' The voter checks it and thinks 
that that changed their voter registration address as well.
    They move to their new county, change their address, check 
that little box. Then they go to the polls on Election Day 
where they think they are supposed to go, and they are not on 
the precinct register. And it caused--I know anecdotally--I 
have heard from my colleagues around the country, it caused 
tremendous problems on Election Day, and it was an 
embarrassment to us, and it showed us the weaknesses in having 
an outside agency, particularly as large as the Motor Vehicle 
Administration with the number of changes of address and 
license transactions that they handle, being responsible, in 
essence, for voter registrations.
    So be it. That is the way the law reads.
    What we have done in Maryland is, we are going to implement 
what I call a ``once registered, always registered to vote'' 
process in Maryland. You get one driver's license when you move 
to Maryland. You should not have to reregister to vote every 
time you move within the State, as long as you remain a 
qualified voter, and so we are working closely with the MVA. It 
is going to be a paper process, probably for 6 months to a 
year, but we are working very closely with them to make it a 
paperless transaction so that their database will tell my 
database that Linda Lamone has moved from one county to 
another. Their record will be transferred, and I will be sent a 
new voter notification card, which is what we call the 
``notification of registration'' in Maryland. I am hoping that 
that alleviates the problem.
    The general assembly has also given me the ability to use 
provisional ballots in the future. I am hoping that with this 
new process of treating the State of Maryland, in essence, as a 
one large jurisdiction for voter registration purposes, that 
that will greatly reduce the need for provisional ballots down 
the road.
    Thank you.
    The Chairman. Thank you very much for your testimony.
    Questions?
    Mr. Davis. One of the issues that received a lot of 
attention in Florida was the need to improve the database that 
was the voter registry. When Secretary of State Katherine 
Harris testified here, she talked about the fact that Florida 
was moving out of the privatization model back to the clerk of 
the court model in Florida and that it was going to cost a 
significant sum.
    Linda, I think you referred to some information--you 
referred to some issues concerning the integrity of the 
database or the registry of voters. And so I guess my first 
question is, all of y'all have stated the case that you would 
appreciate the Federal government funding some of the costs of 
improving your voting equipment; and would you include the 
database as part of that?
    Mr. Lewis. Absolutely, yeah.
    Ms. Lamone. We spent about $4.5 million developing our 
statewide voter registration system on software development and 
hardware for the county.
    Mr. Lewis. North Carolina has at least that much money 
invested in theirs. Some of the other States have spent that 
much or more trying to get to that point, and so it is an 
expensive proposition to get it to work.
    And, secondly, we are probably going to have to find a way 
to marry up to DMV, their database. They have funds, they have 
resources; we don't. And their resources were 70 percent--if 
you look at what the Federal Government says--the OEA says, 72 
percent of all the transactions in voter files belong through 
the DMV, and so that is certainly a place that we are going to 
have to get closer.
    Michigan and Kentucky already have made this a one-step 
process so that it is not a two-step process, it is one 
database. It is one transaction, not two transactions, and that 
makes it a whole lot easier.
    Mr. Davis. My second question pertains to whether you all 
believe, on behalf of your own voters, as well as generally, we 
can realistically expect many of the changes we have been 
discussing to take place in time for the 2002 election. I know 
in Florida that is the intention, as well as the intention to 
begin building on some more, superior changes in time for the 
2004 election. That will influence how compelling the case is 
we can make to the appropriators in terms of funding this year.
    And my second question related to 2002 is, if we do try to 
appropriate some funds and we get that done by the fall or late 
summer, is that soon enough for your planning purposes for 
changes for 2002?
    Ms. Jackson. May I address that?
    Mr. Davis. Yes, ma'am.
    Ms. Jackson. Number one, I feel very strongly that until 
the concept of an election is a Federal election, we are not 
going to move too far. All elections are important, no matter 
what level. If the money is going to be appropriated, then I 
feel that it needs to be appropriated in time for us to produce 
the type of elections in 19--I mean, in 2002 that we have to 
produce. It doesn't need to be changed.
    I will have elections in May of 2002, my county elections. 
If I get no money from the Federal Government, there will just 
be certain things that I will not be able to do. If the money 
should come for the August or the November election--the 
November election is the Federal election--I have got to change 
my operation in midstream, and that is not good for the voters, 
nor is it good for the election commission.
    Our credibility has been stomped, and we are working hard 
to bring it back up. I would almost rather that--if we can't 
have the money late 2001 or early 2002, we not get it until 
2003 in an off-year so that we begin the even years doing the 
same thing that we started out doing.
    Mr. Davis. If we can appropriate the funds and you know 
they are coming by this fall, does that give you enough time to 
use those funds to make the changes you need to make for the 
2002----
    Ms. Jackson. That should be ample time.
    Ms. McCormack. I would like to make a comment on that. 
First of all, we would need to know what kind of funding we are 
talking about. Are we talking about matching grants that are 
going to States and then counties apply? So there is a process. 
Clearly, these processes take time, and indeed determining a 
vendor and a contractor process takes time as well.
    What I have proposed to my board of supervisors, that they 
have not yet funded, is a $3 million expansion of our early 
voting DRE project so that we could have 40 or 50 sites, during 
the couple of weeks before the election up through the Saturday 
and Sunday before the election, for early voting at 40 or 50 
locations instead of just nine, which was a pilot project. We 
know that we would have hundreds of thousands of people now 
with this post-punch card environment, and nine locations is 
insufficient. It was fine for 21,000. It won't work.
    So I need to have some money, because my county won't even 
give me the $3 million to do the expanded pilot project I am 
working toward, because I have chosen a vendor for that. In 
terms of a total county conversion, obviously that is 
impossible in Los Angeles County. It would take a lot longer 
just to do an RFP and a contract implementation. But I am not 
the rest of the country, and the fact is, if there was money 
coming through a grant process that we could all apply for, we 
could start the process to get this thing happening, and that 
is what we need to do.
    We can't expect, obviously, all of California--and I would 
like to reiterate, one size does not fit all. Some States may 
either be more homogeneous and they can have a voting system. 
Perhaps even in Florida it is possible to have a voting system 
that works in every county, but in Los Angeles, we have to have 
a DRE system. The paper scan system does not work, is my 
testimony.
    There is a whole section that I have attached. And Alpine 
County in California has 771 voters, and I have 4 million with 
seven languages.
    So a one-size-fits-all solution is not the issue. We need 
diversity and innovation. But if it were a grant application 
process, I do think that counties would step forward to try to 
start to modernize, and they would have an opportunity to do 
that with matching funds. And we are hoping to get something 
from the States as well.
    So I certainly would hope that wouldn't be a reason--that 
by 2002 if everybody in the country didn't have a new voting 
system wouldn't be an impediment to moving forward as we 
transition into this new process.
    Thank you.
    Mr. Davis. And, Ms. McCormack, do you believe that if we 
did appropriate sufficient funds in the fall, that would allow 
you enough time to implement some improvements for the 20----
    Ms. McCormack. Absolutely, I want to move forward to the 
2002 elections, even for the March primary in our county, in 
our State, toward this expansion of the DRE project that I have 
told my board I can do for $3 million for this initial--and at 
this point, I don't have the $3 million, so----
    Mr. Davis. And if the bill ultimately did end up with some 
local or State match, do you fell like a substantial amount of 
Federal dollars would give you the leverage----
    Ms. McCormack. Yes.
    Mr. Davis [continuing]. You need to----
    Ms. McCormack. Yes. I absolutely do. Absolutely. Thank you.
    Mr. Lewis. And Mr. Davis, one of the things I think you are 
going to find in most jurisdictions is that they would be 
reluctant, beyond about March of 2002, to have to take on the 
task of implementing a new voting system.
    Now, in terms of the other--other features of having better 
voter education and better poll worker education, and in terms 
of making sure that we train and make sure our people 
understand to take care of voters rather than to have 
confrontation with voters. I think we can do those kinds of 
things, but most elections administrators are going to be very 
uncomfortable trying to buy a brand-new voting system and 
installing it in time for a statewide election. It makes you 
very nervous to do that, because you don't know what you are 
going to encounter on a new voting system. You know what you 
have encountered on the old one.
    With every voting system, you end up--you learn that there 
is a work-around. I mean, none of it is perfect, and so you 
have to figure out, what do your voters do to it and then what 
does your staff do to it and, more importantly, what do the 
poll workers do to it before the voter ever gets there. And so 
you--you try to use those in small elections first, working 
your way up gradually to the point that you then implement it 
system-wide in a large election and hopefully not in a 
presidential election.
    Mr. Davis. Yes, ma'am?
    Ms. McCormack. I just wanted to say, I don't think you are 
saying that everybody has to completely convert to the new 
voting system. If options were available for early voting, like 
in California, where any voter could go early, which we had for 
the first time last year, there would be an option for voters; 
and I think that is what we are trying to offer here, some 
options for the counties to move forward.
    I don't think it would be--I hope it wouldn't be a 
requirement for counties to fully implement a new voting 
system. Frankly, there are vendor resource issues. There are 
all kinds of contractual issues, that type of thing.
    Mr. Davis. Mr. Chairman, one last question----
    The Chairman. Sure.
    Mr. Davis [continuing]. To Pam Iorio.
    In your judgment, are some of the small- and medium-sized 
counties in Florida going to need some Federal assistance in 
order for the county to absorb the cost of the conversion for 
the 2002 election?
    Ms. Iorio. The governors task force that was formed in the 
aftermath of the 2000 election estimated that the complete cost 
to move each precinct to--precinct-based optical scan is about 
$10,000 per precinct, including all costs, privacy booths, 
everything. And so the $7,500 allocated per precinct by the 
Florida Legislature is most of it, but I still think some of 
the very small counties--well, all of the--the counties that 
have to make that transition will still have some local monies 
that will be needed to cover the cost.
    Mr. Davis. Okay. Thank you.
    The Chairman. Mr. Reynolds, any questions?
    Mr. Reynolds, Ms. Schmidt, you cited that the National 
Voting Registration Act was an example of legislation that, by 
opposing uniformity, had a negative impact on some State and 
local jurisdictions. I would be interested in your comment and 
some of the other panel members' comments on that--that point, 
if you might, my first question.
    Ms. Schmidt. Certainly. I think in our county particularly, 
we have a very difficult time in tracking voters, and I think 
the--Linda from Maryland put it very well. We have a difficult 
time in connecting with the DMV offices in order to keep our 
list 100 percent accurate.
    In the State of Kansas, we do not have a centralized day-
to-day voter system. We send our file on a quarterly basis to 
the secretary of state's office to do a matching of our voters. 
We have the need for having a little more instantaneous 
information. Our voters in our county move very frequently. We 
spend an enormous amount of our staff time doing nothing but 
updating the voter records from moves.
    Mr. Reynolds. Anyone else? No comment? Does anybody else on 
the panel have a comment on the Voting Rights Act?
    Mr. Lewis. On the Voting Rights Act or the----
    Mr. Reynolds. I am sorry, Voter Registration.
    Mr. Lewis. I think what most of us in the profession are 
really looking at and saying is that we have responsibility for 
some of the things in there, and yet no authority and certainly 
no funding. And we don't mind having the responsibility as long 
as you have the authority to go with the responsibility, so 
that--I mean, it bothers us to be accused of not having good 
voter lists when outside agencies may or may not actually 
report the information that they have gathered to you.
    And so we don't mind--the good feature of NVRA is that it 
does indeed make more people eligible to vote and we are all 
happy with that. We want people in the process.
    What we are not happy with is that you get agencies that 
you have no authority to go train or no authority to say, guys, 
you are doing it wrong, or even, here is the attitude you ought 
to have about it; that this really is an enabling process and 
not something where you kind of tell folks that you don't care 
whether they are there or not.
    And so those are the real reasons that we have problems 
with it, both money and no authority.
    Ms. Iorio. I think the Congress made a, you know, conscious 
decision in 1993, when they passed the National Voter 
Registration Act, that there should be very few barriers, 
institutional barriers, to the registration process and that 
the voter--the registrant should put down very little 
information on the form and that the process should be as open 
and as easy as possible in order to increase voter 
registration. That has occurred. We have dramatically increased 
voter registration throughout this country.
    Now, the flip side of it is that you have--it is the last 
of the great honor systems, and you have errors that are going 
to be made in a society where people just pick up a form and 
fill it out, mail it in, or pick it up at a variety of State 
and county agencies. So there is just a trade-off there; and as 
a country, we just have to decide what we want. Do we want a 
very restrictive registration system but one that is tightly 
controlled and doesn't have many errors, or do we want one that 
is very open and accessible with no barriers at all, but that 
we have a particular error rate associated with it?
    And I think we have already made that decision as a country 
and a Congress and we are living with it, and we have improved 
and dramatically increased voter registration because of it.
    Ms. McCormack. I would just like to comment and reiterate 
the comments of my colleagues that clearly in our county with 
27 DMV offices of the 80 in the State and 5,000 records a week 
coming to us from DMV on voter files, we do have a 50 percent 
match of those that actually match up to our file because when 
people register at the DMV, they don't have to have--they can 
use a post office box. They don't have to have a residence. We 
are not sure it is the same person.
    There is all kinds of software issues about, is this the 
same, you know, John Smith as the John Smith we think this 
might be on the file?
    We have met with all 27 of our offices. We have asked them, 
and they did a better job in November than in the past, 
although we still have thousands of people that thought they 
had registered or did try to register at the DMV, and we didn't 
get their records.
    But to follow up with the paper on a more expeditious 
fashion, these computer bumps also come to us usually about a 
month late, which is obviously when voter registration 
deadlines are now--in California, we used to have 29 days 
before the election; our new law, in January, it is 15 days.
    We are already a month behind on the NVRA records now. So 
when we get these records through the State system, they are 
going to be completely outdated, because there will be many 
people who will have done the process, but--however, didn't 
ever get through to us until way after the election.
    These are just some of the challenges we have to deal with.
    The provisional voting process does help, because we in 
California, anyone who is sure they are registered and they 
should be on the list--because I have to tell you, we make 
administrative errors and get people on the wrong list--do have 
an opportunity to vote. And then during our 28-day 
certification process, we do clear those registrations.
    So in that 28 days following the election in which, 
statewide in California, we added a million extra votes into 
the--10 percent of the votes were counted after Election Day, 
some as many as 3 weeks after Election Day. We always count 
them; it takes time.
    So during this process, we are able to try to work out some 
of these kinks. But there is no perfect process and whenever, 
as Doug mentions, interagencies are involved in a process, it 
is hard enough in my own office--I am also the recorder of 
deeds in my office, and we do 10,000 property transfers a day, 
and we are also--I am also the birth, death and marriage 
commissioner, where our death files have----
    Mr. Hoyer. You have too much to do.
    Ms. McCormack. I do. I have 800 employees, and it is a 
problem. Where--our death file computer system doesn't even 
match up with our voter system, so we are doing a lot of 
paperwork instead of computer bumps in my own office because of 
software issues on different sides of the office.
    So it is--those are all just challenges, though. I don't 
think we should immediately say something is wrong with the 
process because it is a little bit more difficult now to 
administer it.
    I think we can work through some of these problems. We are 
working very hard with the State DMV to come up with a new form 
that is more user friendly, like they have in many of the other 
States. Ours is a process that is impossible for the DMV client 
to understand. So I do think that we can work through some of 
these, but perfection is never going to happen in the election 
process.
    Thank you.
    The Chairman. Thank you very much. I understand that Pam 
Iorio has an airplane to catch. So I wanted to mention that to 
the members of the committee.
    Ms. Iorio. Thank you. Thank you for having me here today.
    The Chairman. I appreciate your time.
    Mr. Hoyer. Could I just thank Ms. Iorio for being with us? 
I found her testimony--I found the testimony of all the 
witnesses to be outstanding and very, very helpful, and I 
appreciate your observations.
    I wanted to ask you some questions, but I will ask the 
others. I don't want you to miss your plane.
    Ms. Iorio. Thank you.
    The Chairman. Mr. Reynolds, do you have any additional 
follow-up questions?
    Mr. Reynolds. Thank you, Mr. Chairman. I guess maybe two.
    One, should we--when we look at the discussion of funding, 
some in testimony referred to today as ``unfunded mandates,'' 
others on Federal elections that did not receive any Federal 
dollars and yet we have imposed uniformity on a voter 
registration program, are there conditions that the Congress 
should place on the distribution of Federal money? And I am a--
kind of a local government guy, so I ask that very carefully as 
I say it.
    But as you are on the front line, and both State officials 
have said, send money to the States, and hearing testimony 
today that money is coming in to improve the system by the 
Federal government, are there conditions? Should we require 
voter ID at the time of election? Should we review some of our 
voter registration on purging lists if people haven't voted, so 
there is assistance in the flexibility of registering, that we 
also don't have registrations all over the place?
    I am curious your reaction to that question.
    Ms. Jackson. As I stated in my testimony, I am hoping, 
after this crisis with Florida and what we are going through 
now, that we will go back--that you all will go back and look 
at NVRA. There are--and it is one of my pet peeves, I have to 
admit it. So I have been very careful in how I scrutinize it 
and where I scrutinize it, so that I don't get in trouble.
    But I think it is probably one of the--well, next to one of 
the worst things that could have happened to the election 
community. It was an opportunity for elected officials to come 
up with an idea of, hey, this sounds good; we will get more 
people registered. There were no local people involved, to my 
knowledge, in working up this legislation, to get it ready.
    As elected officials, that is your first concern, let's get 
enough people registered to vote. Every one of you has done 
massive registration drives prior to your election. So you like 
the idea of DMV and all of these other agencies getting 
involved. They are not election people. We can't go out there 
and do what they do; we would be raising all kind of cain.
    I have sat and watched the operation at the DMV office in 
Chattanooga, and they have got it perfected so that you would 
not think there would be any problems. But once that applicant 
goes out the door, I don't know where that application goes, 
because most of them do not come to us, and I think you have to 
understand that in certain localities, there is a large influx 
of people seeking a driver's license, and these people, 
frankly, don't have the time to fool with it. But we get the 
blame for it when that person doesn't get to vote.
    And I am not there to deny people the right to vote. I wish 
you would go back and look at it because it--it has created too 
many problems. That is the deal.
    The Chairman. Mr. Reynolds, additional questions? Thank 
you.
    Mr. Hoyer.
    Mr. Hoyer. Thank you very much. Mr. Chairman, again, I want 
to reiterate how appreciative I am of the testimony that has 
been given by people who actually, obviously day-to-day, have 
to run the election system and get registrants from the Motor 
Vehicle Administration to the records at local precincts.
    The anecdotal evidence of which Linda Lamone talked, I was 
in a precinct--not my own precinct, but I traveled around 
Election Day, was in there, and happened to see friends of mine 
who had had this happen to them. They registered at motor 
vehicles and were not on the rolls, and they were sent away. 
And whether she got back or not, I don't know.
    But in any event--I was going to ask Ms. Iorio, but let me 
ask the rest of you: She stressed in her testimony, all the 
experts I have heard agree, that if you are going to have an 
accurate system, it has got to be precinct-based. Once you get 
to central counting, you have lost the voter; the voter is 
gone.
    Secondly, you need to be able to have technology which 
corrects--or at least notifies the voter that they have not 
voted correctly.
    Does everybody agree that those are two critical things 
that we need to have?
    Now, let me ask you, on the DREs, two questions. Obviously 
it corrects you immediately. You can't, in effect--it is very 
hard to misvote. You cannot vote, but you can't overvote. 
Technically, you can't overvote, correct? To that extent, it is 
like a lever machine. The lever machine has the advantage, you 
can't overvote on a lever machine, assuming it is working 
correctly.
    Ms. McCormack. They are not all the same. I saw one that 
has been certified recently in California that you could 
actually be moving your hand down and inadvertently vote for 
someone else, because the one I used and the one that I was 
on--the style I was only familiar with is, in order to unvote 
your choice, which lights up in a different color, you have to 
go back and take it off. you know, you can't--you are trying to 
hit something else.
    You would have to go tell--maybe he didn't understand--ask 
the poll worker, well, how come I want to change my mind and I 
can't do it?
    I think that is preferable to one that, as you move your 
hand down the screen, if you inadvertently--but again those are 
designed--and when you have your system panel on that, you will 
see all of that.
    I personally prefer the fact that once you have hit it, you 
can't undo it unless you touch it again, but that is just a 
personal preference. But in terms of the ones up until I saw 
this one recently, I would have answered your question, yes, it 
is impossible to overvote. But----
    Mr. Hoyer. Actually, since it is----
    Ms. McCormack. It is not really an overvote. You wouldn't 
be overvoting; you would be taking off maybe the choice you 
actually wanted. You wouldn't be overvoting if your hand went 
down--and mine did when I was playing with this one, and I 
didn't mean to do that. But all the ones, I believe, unless--
they certainly should; if we had the appropriate management 
standards in place, which we are hoping to have the Federal 
Government help us do, would let the voter review their ballot 
at the end.
    And we have that in our system, where there was a ``review 
ballot'' button. You would go back and look, what did I do? And 
that is similar to the precinct-based optical scan, which--none 
of which, of course, you have in punch card or, by the way, 
absentee.
    We have to remember a lot of people are voting by mail, and 
I think it is very important we design our instructions--and we 
have completely changed ours to be very graphic and colorful--
so that people will have the best opportunity in that mail at 
home not to make these errors; although, of course, if they do, 
they don't have a piece of equipment to put it in to correct 
it.
    Mr. Hoyer. Let me ask you something on recounts. I would 
like to hear your comments to this.
    To the extent that you go to a paperless system, lever 
machines are obviously a paper system, and the only recount on 
a lever machine is to get the count off the back of the machine 
again. If the tumbler didn't work, you will never know it, 
because there is no way to check that.
    On the DREs, am I correct--I don't understand the 
technology. Well, I have never used it either.
    Ms. McCormack. It is different. It is different than that.
    Mr. Hoyer. How do you go back and----
    Ms. McCormack. We had a recount.
    Mr. Hoyer [continuing]. Recount? How do you do that?
    Ms. McCormack. We have a recount after every election. We 
had one in Malibu, six votes apart for a development issue. And 
what's worse than a development issue in Malibu? So it was 
ugly, but you know--the system prints out ballot images of--it 
is not associated with the voter, so we did actually have--
obviously, out of our 21,000 ballots that were cast on DRE, 
some of them were from Malibu, so we were able to print out the 
ballot images.
    Riverside County in California had a totally DRE system for 
their election. It is the largest all-DRE election in the 
country, with 700 precincts, and they had a recount in one of 
their districts and had no problem. And the focus then became 
the absentee, because the absentees aren't DRE. You don't mail 
a DRE to a person, so the recount then ends up focusing on the 
absentee ballot.
    Mr. Hoyer. So is there, in effect, an image that you can go 
back and----
    Ms. McCormack. Yes, there is.
    Mr. Lewis. Federal voting system standards require ballot 
image retention. The one thing that makes some people nervous 
is that the recount cannot possibly come out differently than 
the machine printed it. I mean----
    Ms. McCormack. That is a good thing.
    Mr. Lewis. Yes, and that is a good thing. I mean, this is 
where you get into that age-old argument about whether or not 
we can wean ourselves from paper ballots; and those who are of 
the philosophy that they cannot yet trust the full electronics 
want the paper ballot. The rest of us, who are acquainted with 
how good the electronic stuff is now, say, gee, let's go to 
that, and then let's go through that. But that is--the Federal 
voting system standards require ballot image retention 
scrambled so that you cannot identify it to a voter.
    Mr. Hoyer. Let me ask you about--Connie Schmidt made the 
statement, ``No voter is turned away.'' I personally think that 
is what we ought to have in every precinct in America, not by 
mandate, but by practice, Federal standard advisory, though it 
may be, and that you provide provisional ballots.
    Now I would like to hear the comments of all of you, 
particularly Ms. McCormack, on provisional ballots, which may 
be a--at the level of voters--the numbers of voters you are 
dealing with, an incredible problem for you. But I would like 
to hear all of you--your comments on that, on provisional 
ballots, because as you know, that is a major part of the 
legislation that Senator Dodd and Congressman Conyers have put 
in, and many others.
    Ms. McCormack. Well, I am a major advocate of provisional 
voting. I think it protects the election official. I think it 
protects the poll worker who doesn't have to deal with turning 
anyone away.
    And mistakes happen. We get people on wrong poll lists, 
people--they are registered. Now we have E-15, 15 days before 
the election registration. We had 155,000 new registrations on 
our deadline, E-29, last October. It took us 2 weeks to get 
those on the list. If we are going to be getting them on the 
list, I suppose a day or two before the election, clearly those 
are not going to be on the list at the polls, those last-minute 
ones. We do a FedEx overnight to our 5,000 polls. Some of the 
poll workers say, oh, that is what that FedEx was--but let's 
just don't go there with some of those anecdotal stories.
    But the bottom line is, if the voter shows up and he or she 
is not on the list, we certainly shouldn't penalize them if 
there has been an administrative error.
    We had 101,000 provisional ballots cast in our county. We 
went through those in the 3\1/2\ weeks after the election, one 
by one, as we have to, and determined whether or not the person 
already had voted absentee, because many of them have mailed in 
their absentee and said, oh, I mailed it yesterday on Monday. 
Do you think it will get there? And we always advise them, 
probably not with our post office.
    So we check all the absentees first, and then if they did 
not--if we counted their absentee, we don't count their 
provisional. So it is a one-by-one analysis. We have counted 
61,000 of these. It takes time.
    One of the things I think that needs to be recognized is 
that there are two things in elections that we all want. We 
want speed and we want accuracy. Speed we get with unofficial 
returns election night. Accuracy has to wait until all of these 
processes are completed.
    In a county of our size and in our State, we are allowed 
four weeks to finalize our certification of the vote. We added 
182,000 ballots in during that 4 weeks. We felt comfortable 
that it was accurate.
    We do have recounts. I am not saying these is not an 
occasional one that a provisional should have been counted and 
wasn't, and you know, that is dealt with in a recount or vice 
versa. Perfection, again, doesn't always happen, but it does 
allow the person--I would have hated to think that maybe 
100,000 people at our polls could have been turned away in our 
county alone because they weren't on the list or because of 
some problem, when 61,000 of those were valid, accurate ballots 
to be cast.
    I know it is difficult. I think States need to consider a 
longer certification time between the unofficial returns and 
certifying the official results. One week is inadequate, in my 
opinion. You can certify an election in 1 week; I doubt if you 
can certify an accurate election in 1 week. At least 2 weeks, I 
think, is required.
    But, again, that is a State's prerogative, and we are glad 
that we have more time. But it is a major effort----
    Mr. Hoyer. How much time do you have?
    Ms. McCormack. We have 28 days in California. It really 
takes us that. We work around the clock. We usually try to get 
done by Thanksgiving; that is our goal. We like to be out of 
there by Thanksgiving, which is about 3 weeks.
    Mr. Hoyer. Did you want to comment?
    Mr. Lewis. I just did a survey at the Election Center where 
we surveyed the States and asked the States how many of them 
had provisional ballots. We had 39 responses as of the day 
before yesterday. Nineteen of the States do not offer--out of 
that first 39 that responded, 19 of them do not have a 
provisional ballot.
    Mr. Hoyer. The figure I have is that 17 States have 
provisional ballot provisions.
    Mr. Lewis. And so what we end up with is--of course some of 
those States are same-day-registration States. So a provisional 
ballot wouldn't be necessary----
    Mr. Hoyer. The same-day-ballot States are in addition to 
that, as I----
    Mr. Lewis. And North Dakota has no voter registration. So 
theirs--and then a handful of the States have a process that is 
easier, in their minds, than provisional ballots because all 
they do is require the voter to swear an affidavit and say that 
they live there, and then they will go ahead and count their 
ballot in that election. If it turns out that they were--didn't 
live where they said they lived, then there is no getting that 
vote back. But--so we have a handful of States that have that 
provision and don't want provisional ballots because 
provisional ballots, in that case, would be more restrictive.
    But if we can find a way to define provisional ballots to 
include these other aspects, then we probably can--I mean, I 
think most of us in the elections business, we want voters to 
feel welcome in this process, and we want the idea of a 
provisional ballot--even though it is an administrative 
nightmare on the back end, you know, you want it, because you 
want that voter to feel good about the process.
    Mr. Hoyer. Did anybody else want to comment on that?
    Ms. Schmidt.
    Ms. Schmidt. I understand that the provisional ballot in 
our county, it is very successful. We--in every election, we 
actually end up registering people who were not registered. Our 
provisional ballot envelope is actually a voter registration 
application that we have them fill out. So if they are not a 
registered voter there, they are then a registered voter for 
future elections, so it is all very positive.
    Ms. McCormack. And for those that we don't count, even 
though we don't have to by law, I send a notification to each 
one of them. I don't say, your vote didn't count; I say, there 
has been some problem with your registration, we would like to 
get you back on the files.
    So we are actually following up and trying to make sure 
that we don't have this perpetual provisional person who thinks 
that once they have voted provisional they are going to be on 
the list. Because if they weren't registered, or we can't find 
any record of a registration, or if they were one of these DMV 
folks that were dropped out of the ozone, which happens, at 
least it won's happen to them the next time.
    Mr. Hoyer. Okay. Good.
    Mr. Chairman, I don't know what your time frame--I know you 
have been--okay.
    Let me ask you something, Ms. McCormack. You recently had a 
mayoral race.
    Ms. McCormack. We still are having a mayoral race. We are 
in a runoff between the top two June 5th. It is going to be 
very close, and it is all punch card.
    Mr. Hoyer. So my question is premature. I was going to ask 
you about your experience November to, now May, but April, as 
to whether or not, as a result of any actions you may have 
taken between November and today, that the punch card system 
seems to in the primary be more accurate in any way.
    Ms. McCormack. We did a ``got chad'' campaign, a takeoff of 
the ``got milk'' campaign. We publicized a really nice poster, 
``got chad,'' and put it on every ballot box so that when 
people were beginning to put their ballot into the box, they 
saw this colorful picture of go to the back of your ballot and 
take off your chad.
    Our poll workers were chad freaks. All of a sudden now they 
all were asking every voter, ``check for chad,'' ``check for 
chad.'' And we still had chad. We had less chad than we have 
ever had before. Less chad doesn't mean no chad, but----
    Mr. Hoyer. It is a strange language we have all learned.
    Ms. McCormack. And I have been around for 20 years in all-
punch-card counties, and I always liked it better when only 
about 20 people in the country knew what ``chad'' meant, except 
that it was a country in Africa or a man's name. But we are not 
there anymore.
    So now we are working very hard on education. Clearly it 
helped a little bit. If it is close, which it may be on June 
5th--it looks like it is going to be very close--we will be, I 
am sure, having recounts and ballot intent determinations.
    Mr. Hoyer. Mr. Lewis, as you know, you have been working 
with our office of the legislation that we have prepared. Your 
body is included on our advisory board.
    By the way, since we have had these hearings, since ESL 
testified, we have had them included, I think, the governors 
were included, but some of the other organizations were not, 
that we think ought to be included.
    But what kind of advice would you offer in terms of the 
Congress acting now, and what ought to be included now, and 
what, perhaps, could be done down the line? You obviously in 
your testimony would----
    Mr. Lewis. I think we--certainly if you are going to 
provide funds for voting systems, don't restrict it to only 
voting systems, please. And certainly I see--I think in your 
particular legislation, you are providing funds for counties to 
get rid of precinct--I mean, punch card systems, and that is 
fine. I don't think any of us want to get into the position of 
trying to defend punch card systems.
    But the real truth is that we have got some other parts of 
this process that are equally important, and in fact, probably 
far more important than voting systems. Voting systems are 
certainly the largest part of the expense, but voter education 
has got to be every bit as important as this. Certainly 
election official education has got to be every bit as 
important as this. Poll worker education has got to be every 
bit as important as any of these other things.
    And so if you all are going to start directing some funds 
immediately and you want those to get into the stream 
immediately and you want to see some impacts immediately in 
2002, it is unlikely to be on the voting system side in 2002. 
It is more likely to be on the infrastructure side, to be on 
the systemic problems that we know have existed not only in 
this election, but in previous elections; and certainly became, 
you know, absolutely common knowledge in the election process 
in Florida.
    So we need the funds to get that process really rolling, 
and as long as you all give us the flexibility to allow those 
funds to be applied in ways that we know will improve the 
system and make the system work better, and so that it is more 
responsive to the voters and that it allows the voter to get 
more involved in this and to be more satisfied as a result of 
the process, that is where the money needs to be. And so that 
is where you get started.
    Statewide databases are going to take a while to develop, 
and so they can come--I mean, the money needs to be there to 
encourage folks to do that, but it doesn't have to be 
instantaneous. But certainly these things that are voter-
centered and systemic problem-centered need to be immediate if 
you are going to begin to have any impact with it, because some 
of it we are not going to be able to do without the funds.
    I mean, we are not going to be able to have good voter 
education programs without some funding of that. We are not 
going to be able to have good poll worker training--I mean, 
additional poll worker training or, hopefully, even better poll 
workers, being able to recruit a higher caliber and more supply 
of poll workers, unless we have some ability to do that.
    And certainly in terms of getting these folks educated, the 
Election Center trains 600 to 1,000 of them every year, and 
that is not enough. The one consistent thing that I hear from 
almost all jurisdictions, including some of the ones that are 
wealthier here, is that they can't afford to send many of their 
people to training. It is because their county commissioners 
don't want them to leave the State's borders, in some cases, 
the county's borders, because it costs money.
    So those are--I think this is that we need and we can get 
into and have ready in 2002 if you will allow us to do those 
things now. Voting systems are probably going to come in 2003, 
2005, 2007, 2009 because, quite frankly, if we--if you guys 
gave us $58 billion tomorrow, it would take a while for all of 
those jurisdictions to be able to absorb that, get a voting 
system, and get the companies to be able to train them on that 
voting system. Because it is a small----
    Mr. Hoyer. Thank you for those observations.
    As you probably know, in the legislation that I put in--and 
I don't expect that to move, because Mr. Ney and I, I think, 
will come up with a piece of legislation that Mr. Ney will 
sponsor and I will cosponsor. But the legislation that we put 
in, we have $150 million in there for all the items you have 
just mentioned--actually, $140 million, with $10 million set 
aside for research.
    Mr. Lewis. For research?
    Mr. Hoyer. For research on--because there is really no 
RDT&E money. There is a lot of money for research, development, 
test and evaluation at the Defense Department, but on this 
issue, there is no research money. And because the marketplace 
is so slow, you buy something in 1960 and you have still got it 
in 2000. There is not much incentive for manufacturers to come 
up with new technology.
    Mr. Lewis. Absolutely.
    Mr. Hoyer. So we want to spur technology. So 140 million--
and that figure, Mr. Chairman, may have to be substantially 
larger, because as you--particularly if Ms. McCormack is going 
to do DREs.
    We have keyed the $437 billion, that is $6,000 a precinct, 
on the theory that--I think Pam Iorio gave the full cost of 
everything, but the machines--the county machines themselves 
cost about $5,700. So we put $6,000 times 72,000 precincts 
which use the punch cards and that was the figure to get rid of 
the punch cards.
    However, obviously there is a need for, as you point out, 
voter education; and election official education, we know, is a 
critical component. And I want to say that I have served on the 
Treasury Postal Subcommittee of the Appropriations Committee 
for 18 years and have gone from a time when we had over a 
billion dollars, Mr. Chairman, in what is called revenue 
forgone. That is money that we pay the postal department for 
revenue that they forgo, because they give special rates. We 
included newspapers, da, da, da. We have gone down now where we 
are very, very limited to the blind and some other limited 
costs.
    But I think the proposal that a number of you have put in 
here with respect to the--and we have referenced in the Motor 
Vehicle Registration Act, but we did not implement it, the 
preferential mail rate. There is no excuse for us charging 
first-class rates for sample ballots to be sent out or 
education to voters to be sent out, because the cost simply--I 
live in--or used to live in a fairly rich county, Prince 
Georges County just down the road. It is a relatively wealthy--
we live between Rockefeller and Gates. So we are not--Fairfax 
County and Montgomery County, so we are not perceived as rich, 
but the bottom line is, we are a pretty wealthy county.
    We couldn't send out, Mr. Chairman, 2 years ago, a sample 
ballot, because they didn't have a--Linda, you remember that; 
we didn't have enough money. And we ought to do something about 
that, and that ought to be included.
    Again, we could go on till, I think, probably 12 o'clock 
tonight and learn from you folks, because you are on the front 
line. You really do know what is happening and what is real. I 
hope that you will dedicate the next 30, 60 days, not full-
time--you have got a mayoral election, things of that nature--
but to working with us, all of us, to come up with both short-
term and long-term ways in which we can partner together. Not 
that we can tell you how to do things, but how we can together 
come up with standards, not mandatory standards but standards--
you obviously have all talked about the Office of Education 
Administration. They have done some very good work. They are 
underfunded.
    We can--I want to, frankly, move them out so we have a 
focus on that--on elections as opposed to campaign finance and 
elections. The chairman and I both agree that they are 
obviously related, but they are not the same issue.
    And so I hope that we can work closely with all of you and 
with your colleagues in coming up with legislation which will 
make a partnership that we can--and here is the phrase I use, 
so that we can have elections in the United States of America 
as good as the rest of the world thought we had.
    Ms. McCormack. Or that we have helped fund with the rest of 
the world.
    Mr. Hoyer. Yeah. I understand that. The $30 million, I 
think a year, has been very well spent.
    Ms. McCormack. I am not saying it is not well spent. I am a 
total advocate.
    Mr. Hoyer. Your point is well taken that if we can spend it 
in other countries, we ought to spend it here in a geometric--
geometrically multiplied way.
    Mr. Lewis. And the point is, in 225 years of this 
democracy, the Federal Government has not put one dime into the 
cost of elections. That has been borne entirely by the local 
jurisdictions, and it is about time you all contribute to this 
process.
    The Chairman. One comment I wanted to make on that. Members 
asked me--and I kept saying for the--for the systems to go to 
touch-screens or the--maybe an option of seven or eight 
different pieces of equipment. That is why we are having an 
expo in here. So I am not saying you have to have a touch-
screen system, but let's say that we all find that there are 
nine or ten devices out there that are good, plus the training 
money. And people said to me, well, how much is that going to 
cost?
    The Chairman. It is about $5 billion, with a B, dollars.
    Now, I have not been here a whole long time, but I know 
that we have spent $500,000 to study cows burping. If we can do 
that, then I don't think we should be scared at the $5 billion 
with a B for democracy. People have given a higher price than 
that with their lives. The figure of the $5 billion at the end 
of the day I don't think is something that is going to----
    Mr. Lewis. It is the cost of freedom. That is all it is.
    The Chairman. Most of the questions have been answered. I 
don't want to hold you all here any longer. I have just a 
thought on Federal holiday.
    Mr. Lewis, I know your statement on that--I have one 
thought that says that you have a Federal holiday and if you 
have a long weekend, your end result might be you go out of 
town. That is a possibility.
    So I just wondered--and anybody else--are you of the same 
opinion of Mr. Lewis, or of a different opinion about voter 
turnout?
    Ms. Lamone. It would potentially free up election judges, 
but it probably more likely would free up polling places. All 
of the jurisdictions are constantly looking for accessible 
polling places.
    I think one of the things that I plan to ask my Maryland 
General Assembly to do is to give some sort of incentive to the 
State workers, like the day off with pay, if they serve as 
election judges. We have got to get a younger pool of people 
working, and we are fortunate in Maryland because we only have 
two elections every 2 years. We do not have a lot of elections 
in between.
    But giving State workers a day off with pay if they serve 
as election judges or some other----
    The Chairman. What about the voter turnout? I know it is 
speculation on your part, but what about voter turnout? Does it 
help or hurt it?
    Ms. Lamone. Doug may be in a better position to answer.
    Mr. Ney. I don't think Doug is for that.
    Mr. Lewis. We are for experimenting with it. I think we 
ought to experiment with it and maybe even sunset it, so it 
lasts a certain period of time; and if it is not working, then 
we kill it. If it is working, then we continue with it.
    The truth is that all the things we have ever attempted to 
increase voter turnout and all the reasons we were ever told 
that things would increase voter turnout, the only thing that 
has ever done that is mail elections, M-A-I-L elections. That 
is the only thing that so far has worked. All the rest of them 
have not increased voter turnout.
    The Chairman. The other question I had was about just a 
little elaboration on the problems with uniform poll closing, 
because Mr. Tauzin the Committee on Energy and Commerce 
obviously has had some opinions on that, and some other things.
    We cannot tell the press that you cannot report early. We 
can ask them to cooperate. But what about uniform poll closing? 
And anybody else on the panel. What about that, where you 
structure the hours from the West Coast to the East Coast?
    Ms. Lamone. It would increase the number of hours that the 
polls would be open and, therefore, stressing the poll worker 
situation even more. That is one of my major concerns about it. 
I don't know what my fellow panelists say.
    Mr. Lewis. Yes.
    Ms. Jackson. My concern would be the poll workers, unless 
we got the money and the resources of other election employees 
to work on Election Day.
    As far as the media is concerned, it is just another arm 
out there controlling the election process, if that makes any 
sense.
    The Chairman. It does.
    Ms. Jackson. I feel very strongly about all these people 
being involved and having all the solutions.
    The Chairman. Whether it is intentional or unintentional, 
it is a control factor that comes in that way.
    One other thing I wanted to ask, actually, Ms. McCormack, I 
had heard this stated, that Los Angeles was happy with the 
punch cards. But I am gathering from your testimony, it is not 
that L.A. is happy with them as much as you have them until you 
can get something else, the money to do something else. Is that 
a correct assessment?
    Ms. McCormack. I think it is a fine line we walk to keep 
people confident that their vote is going to count. We are 
going to be punch cards for the foreseeable future. We want 
people to feel like and understand the system and use it to the 
best that they can. I think now in a way this crisis has 
everyone focused a little more on how to use it more 
appropriately.
    So we are trying to not have a crisis of confidence and a 
problem where we have a backlash, that voters do not want to 
vote because they think their ballots do not count, anyway. But 
at the same time, up to in 1999 in California, when DREs were 
certified, there was really not a good alternative for me to go 
to. There has not really been for 33 years something else we 
could go to.
    Now we have identified something that we really do feel 
would meet our needs into the foreseeable future and be better 
for all voters, not just some voters, but the cost is so 
expensive and prohibitive--and with matching grants, hopefully, 
hopefully some money from the Federal, some money from the 
States, and I would think that even the locals would have to 
feel some obligation to put in some money towards it.
    The Chairman. I think if the money--if there is money 
coming from here and there is a match, I still think that is an 
incentive for the local districts.
    Ms. McCormack. I totally believe that. I think an incentive 
would be there.
    The Chairman. You have a recount coming.
    Ms. McCormack. Let's hope we don't have a recount. I have 
an election in 3 weeks.
    The Chairman. I am glad I am actually supporting this 
issue. On Tuesday in my hometown of St. Clairsville, Ohio, on 
the school levy, there were 1,888 votes for it and 1,888 votes 
against it. I did vote. But we are going to back through that 
and count those. Those are punch cards so I am waiting for 
dimples and pregnancies on the ballot, for something to come 
up, and there might be a controversy of what was the correct 
vote. So we are going through that on the recount.
    Ms. McCormack. It sounds like fun. I have had several tie 
votes in my county, as well. They are never fun.
    The Chairman. I have one comment. I want to comment on, 
first of all, this wonderful testimony by everybody involved.
    We do want to stress here about local involvement and local 
voice on this issue. We can't put this together across the 
Nation unless we have the input and some type of feeling by 
locals--and you are about as local as you can get--that there 
is an involvement in the process and also a sympathy and an 
understanding out of the Congress of your needs and what you 
need to do to carry out the election process.
    In Carolyn Jackson's testimony, there was a wonderful 
statement there about a long-overdue dialogue. That is what I 
think, by your presence here today, is helping us with that; 
and by the committee working towards this, it does bring the 
dialogue up. It keeps the subject fresh and keeps the interest 
of people towards the Congress, expecting, again, something to 
be done.
    I just wanted to really commend all of you on your 
testimony. It was very good.
    Mr. Hoyer. Mr. Chairman, one of the things that we did not 
get to, and it is pretty late, we don't want to get into it 
now, is the issue of overseas voting and military voting. That 
is obviously of great concern to us. When we send people 
overseas, we want to ensure the fact that they have the right 
to veto.
    If you have any comments on that that you might want to 
submit to us as issues that you find in your jurisdiction, I 
think we would like to have that, both civilian absentees and 
military absentees.
    Secondly, I would like to make an observation that all of 
you have talked about, and we know that in every jurisdiction 
getting enough people to administer elections is tough. It 
really seems to me that we ought to, in a cooperative way, make 
this a program in which college students all over America 
really ought to participate. That would be a tremendous 
positive education.
    I will tell you, in my area, and I represent an urban 
county, Prince Georges County, right here, 800,000 plus people, 
I hardly ever saw partisanship or, as a matter of fact, I never 
saw partisanship. There were Democratic judges, Republican 
judges. You could not tell the difference, except that they had 
a sign on. None of them had anything to do with politics in the 
sense that they were there to try do what all of you have said, 
make sure that this election process ran correctly.
    It seems to me if we got a lot of young college kids 
involved, young college adults involved in this process in 
every college and university in America, A, it would provide a 
tremendous number of people; and, B, it would provide a 
tremendous education for these young people on how democracy 
works.
    I want to make a comment. I don't always agree with George 
Will, but he wrote a column that I agreed with 100 percent. It 
had to do with the Internet voting. In effect, he said, I am 
not for Internet voting because I believe that electing a 
president or a governor or mayor, a State legislator, a city 
councilperson, is a communitarian process. While we understand 
that there have to be absentees because everybody cannot get 
there, but coming together and voting is such a sacred 
participatory part of our democracy, it seems to me, that it is 
a thing that I--I like to see people in line. I don't like to 
see them in line for a long time.
    The first time I ran for the State senate in 1966, people 
did not get out of the polling place until after 1 a.m. Why? 
There were 19 candidates in my district running for the State 
senate and a commensurate number of house of delegates members, 
a tremendous ballot. But they stayed there in line and waited.
    By the way, Mr. Chairman, I think that--when I heard in 
some polling places in America people were in line and 8 
o'clock or 7 o'clock came and they were told they could not 
vote, I think that is illegal, and it ought to be illegal. If 
you are in line----
    Mr. Lewis. I did a poll on this one, too, of the States, 
because I wanted to find out if there was any State in the 
Union that had a rule or a law that says, if you are in line at 
poll closing time that you can't vote. No State sent in that 
they had such a rule.
    Mr. Hoyer. You heard the stories that I heard about people 
being told, it is 8 o'clock, polls are closed, you have to go 
home.
    Mr. Lewis. Here is what I think most of them were, were 
people who tried to join the line after the poll closing time, 
which cannot be done.
    Mr. Hoyer. I agree with that. The polls close at 8 o'clock, 
and if you are in the line, it is like the checkout line: The 
last cart can go through, but after that no more carts in the 
line.
    In any event, I appreciate the testimony. I hope, Mr. 
Chairman, that one of the things we do, maybe not in 
legislation, but we try to get together with the colleges and 
universities and make this a national program.
    We talk about a lot of the programs that President Clinton 
had, President Bush had in terms of voluntary participation. 
This would be a tremendous educational effort that would 
provide a tremendous service to the country as well.
    Thank you for your testimony.
    Thank you, Mr. Chairman.
    Mr. Davis had to leave, but he wanted this letter included 
in the record.
    The Chairman. Without objection.
    Talking about the community effort, there was talk here, at 
one time, I understand, before I got in the Congress, about the 
fact that you could vote from maybe your home or something, but 
you need to be here to come together again.
    I remember that long line. In 1966, I was in third grade, 
and I was with my father standing in line, and it was a long 
line, voting for----
    Mr. Hoyer. We went a long time before we had a vicious 
attack.
    Mr. Reynolds. Mr. Chairman, in deference to the ranking 
member, you look older than that.
    The Chairman. I have said many times----
    Mr. Hoyer. God bless you, Mr. Reynolds.
    The Chairman. I have said many times at public events that 
Mr. Hoyer has held up a lot better than me. Actually, I was in 
the seventh grade.
    If there is no further business----
    Ms. Jackson. Mr. Chairman?
    The Chairman. Mrs. Jackson.
    Ms. Jackson. I would hope, because this has been so 
beneficial, that if you continue to have these hearings and 
come up with a committee that could include some local people, 
I think it would be very beneficial to the process.
    Mr. Hoyer. Ms. Jackson--if I might, Mr. Chairman--you heard 
me talking to Mr. Lewis.
    In our legislation that I put in, that--by the way, I want 
you to know, before I put the legislation in, I sat down with 
the Chairman in his office, and we went over it. At that point 
in time, under his leadership, we were negotiating with a 
bipartisan group; and unfortunately that did not work, so we 
discussed this.
    We want to make sure that we have, in whatever commission 
or group that we have at the Federal level, that we have 
included on that--we have you included on it. We have the two 
members appointed by the National Association of County 
Recorders, Election Administrators, and Clerks already in the 
legislation, because we understand--I understand, and I think 
everybody on this committee understands, this is not our 
responsibility or expertise, administering elections, it is 
yours.
    On the other hand, Mr. Lewis makes a very powerful point, 
with which all of you obviously agree, and which Florida and 
the 37 days that we were mesmerized by what was going to happen 
in Florida, pointed out very clearly that what you do affects 
everybody in the Nation and all of us who have a Federal 
responsibility under the Constitution for Federal elections.
    But we know that whatever we set up darned well better have 
your input on a regular, ongoing, legislated basis or we are 
not going to do it as well as we could.
    So I appreciate your observation. I want you to know we are 
going to do that.
    The Chairman. I ask unanimous consent that witnesses be 
allowed to submit their statements for the record and for those 
statements to be entered into the appropriate place in the 
record.
    Without objection, the material will be so entered.
    I ask unanimous consent that staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee in today's hearing.
    Without objection, so ordered.
    Having completed our business for the day and for this 
hearing on election reform, the committee is adjourned.
    Thank you for your participation.
    [Whereupon, at 7:10 p.m., the committee was adjourned.]


</pre></body></html>
